No. 20-1306
CAPITAL CASE
IN THE

SUPREME COURT OF THE UNITED STATES
ALAN DALE WALKER,
Petitioner
v.
STATE OF MISSISSIPPI,
Respondent
On Petition for a Writ of Certiorari to
the Supreme Court of Mississippi

CERTIFICATE OF SERVICE
Undersigned counsel hereby certifies that a true and correct copy of the Brief
in Opposition filed in the above-captioned matter has been served on opposing counsel
by electronic mail to jim.craig@macarthurjustice.org and by depositing a copy of the
same in the United States Mail, first class postage pre-paid, addressed as follows:
James W. Craig
Roderick & Solange MacArthur Justice Center
4400 S. Carrollton Ave.
New Orleans, LA 70119
/s/ LaDonna C. Holland
LADONNA C. HOLLAND
Special Assistant Attorney General
Counsel of Record
STATE OF MISSISSIPPI
OFFICE OF THE ATTORNEY GENERAL
P.O. Box 220
Jackson, Mississippi 39205-0220
(601) 359-3827
ladonna.holland@ago.ms.gov
Counsel for Respondent

